  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General


     Evaluation of DHS’ Information Security
          Program for Fiscal Year 2005




       Office of Information Technology

OIG-05-46                       September 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report assesses the strengths and weaknesses of controls over the information security program
and practices at DHS. It is based on interviews with employees and officials of DHS, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

  Executive Summary....................................................................................................................... 1

  Background .................................................................................................................................... 3

  Results of Independent Evaluation ................................................................................................ 6

  Recommendations ........................................................................................................................ 14

  Management Comments and OIG Analysis ................................................................................ 14

Appendices

  Appendix A:                Purpose, Scope, and Methodology.................................................................. 16
  Appendix B:                Management Response to Draft Report ......................................................... 18
  Appendix C:                Digital Dashboard ........................................................................................... 20
  Appendix D:                System Inventory and IT Security Performance ............................................. 21
  Appendix E:                OIG Assessment of the Plan of Action and Milestones Process .................... 24
  Appendix F:                OIG Assessment of the Certification and Accreditation Process ................... 25
  Appendix G:                Agencywide Security Configuration Requirements ....................................... 26
  Appendix H:                Incident Detection and Handling Procedures.................................................. 27
  Appendix I:                Security Training Procedures.......................................................................... 28
  Appendix J:                Major Contributors to This Report ................................................................. 29
  Appendix K:                Report Distribut ion ......................................................................................... 30

Abbreviations

  ATO                        Authority to Operate
  C&A                        Certification and Accreditation
  CBP                        United States Customs and Border Protection
  CIO                        Chief Information Officer
  CIS                        United States Citizenship and Immigration Services
  CISO                       Chief Information Security Officer
  CSIRC                      Computer Security Incident Response Center
  DHS                        Department of Homeland Security
  DISA                       Defense Information Systems Agency
  E-authentication           Electronic Authentication
  EP&R                       Emergency Preparedness and Response
  FIPS                       Federal Information Processing Standard
  FISMA                      Federal Information Security Management Act
  FLETC                      Federal Law Enforcement Training Center
  FY                         Fiscal Year
  IAIP                       Information Analysis and Infrastructure Protection

                             Evaluation of DHS’ Information Security Program for FY 2005
Table of Contents/Abbreviations
  ICE        United States Immigration and Customs Enforcement
  ISSM       Information Systems Security Manager
  ISSO       Information Systems Security Officer
  IT         Information Technology
  NIST       National Institute of Standards and Technology
  NSA        National Security Agency
  ODP        Office of Domestic Preparedness
  OIG        Office of Inspector General
  OMB        Office of Management and Budget
  PKI        Public Key Infrastructure
  POA&M      Plan of Action and Milestones
  S&T        Science and Technology
  SP         Special Publication
  TSA        Transportation Security Administration
  US-CERT    United States Computer Emergency Readiness Team
  USCG       United States Coast Guard
  USSS       United States Secret Service
  US-VISIT   United States Visitor and Immigrant Status Indicator Technology




             Evaluation of DHS’ Information Security Program for FY 2005
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                              Due to the increasing threat to information systems and the highly
                              networked nature of the federal computing environment, Congress, in
                              conjunction with the Office of Management and Budget (OMB), requires
                              an annual review and reporting of agencies’ compliance with the Federal
                              Information Security Management Act (FISMA) of 2002.1 FISMA focuses
                              on the program management, implementation, and evaluation of the
                              security of unclassified and national security systems. 2

                              To comply with OMB’s FISMA reporting requirements, we conducted an
                              independent evaluation of the Department of Homeland Security’s (DHS)
                              information security program and practices. As part of our review, we
                              evaluated DHS’ processes and the progress made in implementing its
                              agencywide information security program. In doing so, we specifically
                              assessed DHS’ Plan of Action and Milestones (POA&M) as well as
                              certification and accreditation (C&A) processes. We focused our
                              evaluation on whether DHS’ major organizational components are
                              aligning their information security program and practices with DHS’
                              agency-wide information security program.

                              We performed our work at both the program and the organizational
                              component levels. The following organizational components were
                              included in our review: United States Customs and Border Protection
                              (CBP), United States Citizenship and Immigration Services (CIS),
                              Emergency Preparedness and Response (EP&R), Federal Law
                              Enforcement Training Center (FLETC), Information Analysis and
                              Infrastructure Protection (IAIP), United States Immigration and Customs
                              Enforcement (ICE), DHS Management (Management), Office of Inspector
                              General (OIG), Science and Technology (S&T), Transportation Security
                              Administration (TSA), United States Coast Guard (USCG); and United
1
     FISMA is included under Title III of the E-Government Act (Public Law 107-347).
2
     The term “national security system” means any information system, including any telecommunications system,
     used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency:
    (i) The function, operation, or use of which involves intelligence activities; involves cryptographic activities
          related to national security; involves command and control of military forces; involves equipment that is an
          integral part of a weapon or weapons system; or is critical to the direct fulfillment of military intelligence
          missions (excluding a system that is to be used for routine administrative and business applications, i.e.,
          payroll, finance, logistics, and personnel management applications), or
    (ii) is protected at all times by procedures established for information that have been specifically authorized under
         criteria established by an Executive Order or an Act of Congress to be kept classified in the interest of national
         defense or foreign policy.

                                Evaluation of DHS’ Information Security Program for FY 2005

                                                           Page 1
                          States Secret Service (USSS). See Appendix A for a detailed discussion
                          of our purpose, scope, and methodology.

                          DHS achieved two significant milestones that will help the department
                          move toward managing a successful information security program. First,
                          DHS completed a comprehensive inventory of its major applications and
                          general support systems, including contractor and national security
                          systems, for all organizational components. Second, DHS implemented a
                          department-wide certification and accreditation (C&A) tool that
                          incorporates the guidance required to adequately complete a C&A for all
                          systems. The completion of these two tasks eliminated two factors that
                          significantly held the department back in achieving some success in
                          establishing its security program in the last two years.

                          The Chief Information Security Officer (CISO) revised the baseline
                          information technology (IT) security policies and procedures in the
                          Sensitive Systems Policy Publication 4300A and its companion, the
                          Sensitive Systems Handbook 3 ; and National Security Systems Policy
                          Publication 4300B and its companion, the National Security Systems
                          Handbook 4 to include updated policy on Public Key Infrastructure (PKI),
                          wireless communication and media reuse and disposition. Other changes
                          included mandating that the components ensure that their systems meet the
                          requirements specified in the DHS baseline configuration guides, as well
                          as the acceptable methods for encrypting sensitive information.
                          Additionally, DHS issued the DHS Information Security Program Plan of
                          Action and Milestones (POA&M) Process Guide, 5 which provides the
                          department and components with the necessary guidance and procedures
                          to develop, maintain, report, and mature the POA&M process. Together,
                          these policies and procedures - if fully impleme nted by the components -
                          should provide DHS with an effective information security program that
                          complies with FISMA requirements.

                          As we reported in our Fiscal Year (FY) 2004 FISMA evaluation, and
                          despite several major improvements in DHS’ information security
                          program, DHS organizational components, through their Information
                          Systems Security Managers (ISSM), have not completely aligned their
                          respective information security programs with DHS’ overall policies,
                          procedures, and practices. For example:

                          •     All DHS systems have not been certified and accredited.
                          •     All organizational components’ information security weaknesses are

3
  The latest versions are dated July 29, 2005.
4
  The latest versions are dated August 15, 2005
5
  Dated June 10, 2005.

                              Evaluation of DHS’ Information Security Program for FY 2005

                                                       Page 2
                                not included in a POA&M.
                          •     Data in the enterprise management tool, Trusted Agent FISMA, is not
                                complete or current.
                          •     System contingency plans have not been developed or tested for all
                                systems.
                          •     FISMA metrics data, captured within Trusted Agent FISMA and used
                                by the Chief Information Officer (CIO) to monitor component’s
                                security programs, is not comprehensively verified.

                          While DHS has issued substantial guidance designed to create and
                          maintain secure systems, we identified areas where agencywide
                          information security procedures require strengthening: (1) certification
                          and accreditation; (2) vulnerability testing and remediation; (3) penetration
                          testing; (4) contingency plan development and testing; (5) incident
                          detection, analysis, and reporting; (6) security configuration; and,
                          (7) specialized security training.

                          In our FY 2004 report, we identified issues to be addressed to assist DHS
                          and its components in the implementation of its information security
                          program. While some of these issues have been addressed, such as
                          completing a comprehensive inventory; the majority of DHS’ operational
                          systems have not been certified and accredited. Further, POA&Ms have
                          not been developed for all weaknesses. We recommend that DHS
                          continue to consider its information security program a significant
                          deficiency for FY 2005.

                          In response to our draft report, DHS agreed and has already taken steps to
                          implement each of our recommendations. DHS’ response is summarized
                          and evaluated in the body of this report and included, in its entirety, as
                          Appendix B.

Background
                          The E-Government Act of 2002 (Public Law 107-347) recognized the
                          importance of information security to the economic and national security
                          interests of the United States. 6 Title III of the E-Government Act, entitled
                          FISMA, provides a comprehensive framework to ensure the effectiveness
                          of security controls over information resources that support federal
                          operations and assets.



6
 Information security means protecting information and information systems from unauthorized access, use,
disclosure, disruption, modification, or destruction.

                              Evaluation of DHS’ Information Security Program for FY 2005

                                                       Page 3
FISMA requires each federal agency to develop, document, and
implement an agency-wide security program. The agency’s security
program should protect the information and the information systems that
support the operations and assets of the agency, including those provided
or managed by another agency, contractor, or other source. As specified
in FISMA, agency heads are charged with conducting an annual
evaluation of information programs and systems under their purview, as
well as assessments of related security policies and procedures. OIGs
must independently evaluate the effectiveness of an agency’s information
security program and practices on an annual basis.

OMB issued memorandum M-05-15, FY 2005 Reporting Instructions for
the Federal Information Security Management Act and Agency Privacy
Management, on June 13, 2005. The memorandum provides updated
instructions for agency and OIG reporting under FISMA. This annual
evaluation summarizes, according to OMB’s instructions, the results of
our review of DHS’ information security program and practices.

DHS’ CIO, who has oversight responsibilities for DHS’ information
security program, has delegated to the CISO, as required under FISMA,
the authority to establish information security policies and procedures
throughout the department. DHS’ CISO has reorganized the staff into
three main areas: program management, program services, and program
performance. These areas are essential to deliver a successful security
program to protect the confidentiality, integrity, and availability of
information.

DHS has developed a process for reporting and capturing known security
weaknesses in POA&Ms. DHS utilizes an enterprise management tool,
Trusted Agent FISMA, to collect and track data related to all POA&M
activities, including self-assessments, and certification and accreditation
data. Trusted Agent FISMA also collects data on other FISMA metrics,
such as the number of systems that have contingency plans, systems with
contingency plans tested, systems certified and accredited, employees who
have received IT security training, and incident response statistics. DHS
also uses an enterprise C&A tool, Risk Management System, to automate
and standardize portions of the C&A process to assist DHS to quickly and
efficiently develop security accreditation packages. See Figure 1 for an
illustration on how the tools are used within the department to collect,
manage, and report information security metrics.

A Security Applications Working Group was established in June 2004.
The group meets monthly to foster a dialogue between the CISO and the
organizational components, to obtain the components’ input on ways to
improve the FISMA data collection effort, and address issues and

 Evaluation of DHS’ Information Security Program for FY 2005

                          Page 4
                          problems that relate to the use of Trusted Agent FISMA and the C&A
                          tool.

                          To manage the organizational components’ compliance with FISMA
                          metrics and the effectiveness of their component- level information
                          security programs, the CISO has developed a “digital dashboard,” which
                          uses red, yellow, and green indicators to reflect the status of each
                          component’s percentage of compliance. 7 The information used to develop
                          the digital dashboard comes from data in Trusted Agent FISMA, and from
                          DHS’ program directors. See Appendix C for the digital dashboard as of
                          August 26, 2005.

                          Figure 1: DHS’ Enterprise Security Management Tools Usage

                                DHS 4300                                        C&A Tool                                        Data Review Teams

                            FISMA Requirements                         System Security Plan (SSP)                                     DHS
                                                                                                                                   Compliance
                            OMB/NIST Guidance                     Requirements Traceability Matrix (RTM)                             Review
                                                                                                                                     Teams
                                                                    Security Assessment Report (SAR)
                            Other Requirements
                                                                         Sample Test Procedures
                                     Component IT Security                                                                            OIG
                                     Program Implementation                    Test Results

                                                                            Contingency Plans               Data Verification
                                                 IT System                                                      and Review
                                           Implementations                                                                         Component/
                                                                                                                                    Domain
                                                                                     Future Link                                     ISSM
                                 DHS
                              Component/
                                                                       FISMA Reporting Tool
                                Domain

                                                                   System and Program Security Metrics
                                               Monthly Status
                                               Updates            Plan of Action and Milestones (POA&M)
                                                                                                           FISMA Reports              OMB
                                                                    Annual Assessment Questionnaire

                                                                      Summary of C&A Status/Docs

                                                                                 Reports

                                                                            Digital Dashboard               Metrics
                                                                                                                                     DHS
                                                                                                            Digital Dashboard     Management



                          Source: DHS Sensitive Systems Handbook, Attachment E – FISMA Reporting



                          In addition to our independent evaluation, we conducted reviews of DHS’
                          information systems and security program related areas throughout
                          FY 2005. This report includes results of a limited number of systems
                          evaluated during our on- going financial statement review, and from
                          on-going audits of network security, database security, and United States
                          Visitor and Immigrant Status Indicator Technology (US-VISIT) security.




7
  These metrics include the percentage of systems that have been accredited, systems and applications for which an
annual self-assessment has been completed, systems with contingency plans developed and tested, personnel
(employees and contractors) that completed security awareness, and IT security professionals trained.

                            Evaluation of DHS’ Information Security Program for FY 2005

                                                                Page 5
Results of Independent Evaluation
We separated the results of our evaluation into six FISMA reporting areas. For each area we
identified progress that DHS has made since our FY 2004 evaluation and issues that need to be
addressed in order to be successful in the FISMA area.

                  System Inventory and IT Security Performance

                           DHS has made significant progress by compiling a department-wide
                           system inventory and issuing additional guidance to the components.
                           However, DHS must perform self-assessments and e-authentication risk
                           assessments on all of its systems, including contractor systems.

                           PROGRESS

                           •     DHS completed a comprehensive inventory of its major applications
                                 and general support systems, including contractor and national security
                                 systems. DHS identified 795 operational systems (as of
                                 August 25, 2005). In FY 2004, DHS reported 295 systems.
                           •     DHS issued guidance for: (1) identifying security categories for
                                 information and informa tion systems (Federal Information Processing
                                 Standard (FIPS) Publication 199) 8 ; (2) determining if an electronic
                                 authentication (e-authentication) risk assessment is required (and the
                                 assurance level, as appropriate); and, (3) determining if a privacy
                                 impact assessment is required.
                           •     DHS issued a draft PKI policy in April 2005 as well as a draft wireless
                                 policy and procedures in June 2005.
                           •     DHS established a policy prohibiting peer-to-peer file sharing software
                                 on DHS computers or on any computer or information system that
                                 might be connected to its network.

                           ISSUES TO BE ADDRESSED

                           •     Since completing its first comprehensive system inventory in August
                                 2005, DHS has not yet developed a process that it will use to update its
                                 inventory at least annually beginning next year.
                           •     Components have not completed e-authentication risk assessments for
                                 all systems.


8
  FIPS Publication 199, Standards for Security Categorization of Federal Information and Information Systems,
dated February 2004, defines the standards all federal agencies are to use in categorizing information and
information systems according to a range of risk levels impacting the confidentiality, integrity, and availability of
the information or information systems.

                               Evaluation of DHS’ Information Security Program for FY 2005

                                                         Page 6
                          •     Components have only completed National Institute of Standards and
                                Technology (NIST) 800-26 self-assessments on 46 percent of its
                                contractor systems (as of August 26, 2005). 9
                          •     System contingency plans have not been developed or tested for all
                                systems. For example, during our network audit, we determined that
                                TSA and USSS had not developed a contingency plan; and, USCG had
                                not tested its contingency plan. During our database audit, we
                                determined that CIS, USCG, and USSS had not developed a
                                contingency plan, while EP&R had not tested its contingency plan.

                          See Attachment D for specific System Inventory and IT Security
                          Performance data.

                 OIG Assessment of the Plan of Action and Milestones Process

                          While DHS has issued guidance and implemented a tool to capture and
                          track weaknesses, improvements are needed in the components’
                          implementation of the POA&M process. The components are not
                          including all IT security weaknesses in the tool nor is all of the data
                          entered accurately.

                          PROGRESS

                          •     DHS made numerous enhancements to Trusted Agent FISMA to make
                                it a more useful tool to manage its security program. Enhancements
                                included additional management reports at the component and
                                department level, computed metrics, and updates to fields in the digital
                                dashboard and other sections to support changes in FISMA reporting.
                          •     DHS issued the DHS Information Security Program Plan of Action
                                and Milestones (POA&M) Process Guide in June 2005. The
                                document provides the department and components the guidance and
                                procedures for developing, maintaining, reporting, and maturing the
                                POA&M process. See Figure 2 for the DHS POA&M process.
                          •     DHS established a process to conduct monthly, high- level reviews of
                                some of the POA&M data entered into Trusted Agent FISMA to
                                determine if the information is complete. The results of these reviews
                                are communicated to DHS components through various means,
                                including “Get Well” reports and in comments accessible through the
                                Trusted Agent FISMA Digital Dashboard.



9
 Contractor systems include information systems used or operated by a contractor of an agency or other
organization on behalf of an agency.

                              Evaluation of DHS’ Information Security Program for FY 2005

                                                       Page 7
                                              Figure 2: DHS’ POA&M Process
                                                                               An IT Security Weakness,
                                                                                 Material Weakness, or
                                                                                Significant Deficiency is
                                                           Weakness               identified, at eithe r a
                                                           Identified          program or a system level.                                                             ISSMs review, on a
                                                                                                                                                               ISSM   quarterly basis, for
                                                                                                                                                                      consistency and accuracy
                                                                                                                                                                      within their OE
                                                                                                                                         Quarterly
                                                                                                                                      Reporting/Review                CISO submits quarterly
                                                                                                                                                                      reports to OMB and
                                                                                                                                                                      Congress
                                  ISSOs ensure POA&M       Document
                                  are entered into         Weakness
                                  Trusted Agent FISMA.                                    Trusted FISMA Agent                             Annual
                                                                                                                                      Reporting/Review
                                                                              The OE's use the DHS Enterprise -wide tool,
                                                                           Trusted Agent FISMA, for identifying and tracking
                                                                                         all POA&Ms to closure.
   The DHS CISO ensures that the agency's
                                                                            For Sensitive Systems - The OE's document and
          POA&M process represents a
       prioritization of agency IT security                                 manage POA&M's using Trusted Agent FI SMA.
      weaknesses which ensures that IT                                     For Classified, Intelligence, and National Security
                                                            Prioritize    Systems - The OE's maintain redacted POA&M data
    security weaknesses are addressed in a
                                                                               within Tru sted Agent FISMA for enterprise
       timely manner and receive, where
       necessary, appropriate resources                                      management and oversight. Detailed POA&M
                                                                             documentation is maintained off -line and made
                                                                                       readily available to auditors.



                                                                                   ISSOs
                                                            POA&M                  develop, track
                                                         Developed and             and manage
                                                          Documented               POA&Ms for
                                                                                   systems                           ISSMs ensure the use of Trusted Agent
                                                                                   under their                       FISMA to develop, track, and manage the
                                                                                   control.                  ISSM    remediation of IT system and program
                                                                                                                     weaknesses within their OE



                                                             Take
                                                           Corrective
                                                            Action

                                                                            Repeat until all of the
                                                                            milestones have been
                                                                            completed for each
                                                                            weakness.
                   Independent review conducted
                   by Compliance and Oversight               Track
                   Program within the Office of the       Corrective
                   CISO                                   Action(s) to
                                                          Completion


                                                                           Complete Monthly
                                                                           Updates within Trusted
                                                            Monthly        Agent FISMA
                                                           Reviews of
                                                           weaknesses
                                                          and milestone
                                                               data                ISSOs ensure POA&M are
                                                                                   current as documen ted in
                                                                                   Trusted Agent FISMA

Source: POA&M Guide

Note: Based on our review, the main reason for the process failure is due to the ISSMs and
ISSOs not ensuring that POA&Ms are entered and current.

                                              ISSUES TO BE ADDRESSED

                                              •       DHS’ components have not created POA&Ms for all known
                                                      weaknesses. As of August 22, 2005, only 35 percent of the 791
                                                      operational applications and general support systems listed in Trusted
                                                      Agent FISMA had POA&Ms entered. Since 68 percent of the
                                                      operational systems do not have a completed C&A (as of
                                                      August 26, 2005 - see Appendix C), there should be at least one
                                                      POA&M (lack of completed C&A) for each of these systems.

                                                  Evaluation of DHS’ Information Security Program for FY 2005

                                                                                      Page 8
•     DHS relies on the component ISSMs and Information Systems
      Security Officers (ISSO) to ensure that POA&M information is
      entered, accurate, and that weaknesses listed in the POA&Ms are
      resolved. However, based upon our analysis of data in Trusted Agent
      FISMA as of August 22, 2005, the ISSMs and ISSOs are not
      maintaining current information as to the progress of security
      weakness remediation.
           Ø We determined that 650 of the 2,425 open POA&Ms
             (27 percent) had estimated completion dates prior to July 22,
             2005. Therefore, POA&Ms have not been updated in ove r a
             month, including 40 (2 percent) that had not been updated in
             over a year.
           Ø Ninety-five POA&Ms (4 percent) did not have an estimated
             completion date entered in the system.
           Ø Only 370 of the 2,425 open POA&Ms (15 percent) included
             the resources required for remediation, and almost half of those
             (152) listed the cost of remediation as one dollar. The total
             estimated cost of remediation for the 370 POA&Ms is
             approximately $24.3 million. Since this amount represents
             only a small percent of all POA&Ms, the actual cost to
             remediate all weaknesses cannot be accurately budgeted by the
             components or the department.
•     The components have not created POA&Ms for all OIG audit report
      findings in Trusted Agent FISMA. Of the seven components notified
      of security weaknesses during fiscal year 2005 network, database and
      US-VISIT audits (CBP, CIS, EP&R, TSA, USCG, USSS, and
      US-VISIT), only EP&R had established POA&Ms for all identified
      weaknesses.
•     The CISO has not established detailed procedures to review the
      component’s POA&M information for accuracy, completeness, and
      quality at least quarterly, as required by OMB. DHS plans to hire a
      contractor to conduct component site visits, which would include
      detailed reviews of the POA&M process, including reviewing the
      quality and completeness of the component’s POA&M data. The
      methodology of the reviews has not been established.
•     Based on our review of data in Trusted Agent FISMA as of August 22,
      2005, we determined that ten components did not appropriately assign
      security responsibilities for their respective systems. Specifically,
      CBP, CIS, IAIP, ICE, Infrastructure, Office of Domestic Preparedness
      (ODP), S&T, TSA, USCG, and USSS each had three or more major
      applications or general support systems with no security personnel
      identified in Trusted Agent FISMA - including TSA and USCG which

    Evaluation of DHS’ Information Security Program for FY 2005

                             Page 9
            each had 15 systems with no designated personnel. Further, four
            components had designated one person as the ISSO for numerous
            major applications or general support systems (e.g., CIS-24 systems,
            IAIP-16 systems, USCG-144 systems, USSS-39 systems).

      See Appendix E for the OIG Assessment of the POA&M Process.

OIG Assessment of the Certification and Accreditation Process

      DHS has implemented a departmental C&A tool. However, we
      determined that many C&A packages did not contain all of the required
      documents. In addition, the majority of DHS’ systems have not been
      certified and accredited.

      PROGRESS

      •     DHS deployed a C&A tool to establish a standard process to certify
            and accredit IT systems. For all C&A’s beginning in April 2005,
            components were required to use the tool to accredit all unclassified
            and collateral classified systems.
      •     DHS issued guidance to assist components in determining system
            impact levels in accordance with FIPS 199.

      ISSUES TO BE ADDRESSED

      •     Our review of 16 certification and accreditation packages at nine
            components found 15 instances in which accreditation packages were
            incomplete. Specifically, systems were accredited, although some key
            security documents were either not prepared, in draft, or did not meet
            all applicable OMB and National Institute of Standards and
            Technology (NIST) guidelines. Documents include system security
            plans, risk assessments, FIPS 199 security categorizations, privacy
            impact assessments, e-authent ication assessments, memorandum of
            understandings, contingency plans, and contingency plan testing.
      •     Components have not defined impact levels according to FIPS 199 for
            all systems in Trusted Agent FISMA.
      •     Components have not performed privacy impact assessments for all
            systems.
      •     The CISO requires Authority to Operate (ATO) memorandums to be
            uploaded into Trusted Agent FISMA in order for a system to be
            counted as accredited. Our review of 215 ATO letters in Trusted
            Agent FISMA on May 31, 2005 disclosed some were not valid.
            Specifically, nine were Interim ATO letters, nine were

          Evaluation of DHS’ Information Security Program for FY 2005

                                   Page 10
            recommendations for ATO, eight were ATO letters for a different
            system, two were not ATO letters, and two were blank documents.
      •     As of August 26, 2005, only 32 percent of DHS’ 795 operational
            systems have been certified and accredited.

      See Appendix F for the OIG Assessment of the C&A Process.

Agencywide Security Configuration Requirements

      DHS has issued baseline software security configuration guides for many
      of its systems. However, the components have not implemented security
      configuration requirements for all systems.

      PROGRESS

      •     DHS developed agencywide security baseline configuration guides for
            Windows 2000, Windows 2003/ XP Professional, Solaris, HP-UX,
            Linux, Cisco Routers, and Oracle database servers in November 2004.
      •     DHS requires that components ensure that the installation of hardware
            and software products meet the requirements specified in applicable
            DHS baseline configuration guides.
      •     Several of the components included in our review have developed their
            own baseline security configuration requirements, or incorporated
            some of the configuration guidelines published by DHS and other
            agencies (such as NIST, the National Security Agency [NSA], and the
            Defense Information Systems Agency [DISA]), for at least some of
            their applications and operating system environments. For example:
            CBP is using many sources as a baseline to develop its policies
            including DHS, NIST, NSA and DISA guidelines; and, USCG uses
            DISA guidelines as a baseline for its policies.

      ISSUES TO BE ADDRESSED

      •     At the time of our review, baseline configuration guides had not been
            developed for all hardware and software systems in use at DHS (for
            example, Windows NT, Microsoft SQL Server database management
            system).
      •     Our review of four baseline configuration guides (Windows 2000,
            Linux, Solaris, and Oracle) disclosed that improvements are needed
            for three of the guides (Linux, Solaris, and Oracle) in order to properly
            secure DHS’ systems. While DHS issued updated guides on
            September 1, 2005, we were unable to determine if the guides are
            adequate.

          Evaluation of DHS’ Information Security Program for FY 2005

                                   Page 11
                            •     DHS policy does not require that the components use NIST’s security
                                  configuration checklists - NIST Special Publication (SP) 800-70 - for
                                  systems where DHS has not developed its own baseline configuration
                                  guides.
                            •     DHS components have not implemented security configuration
                                  requirements for all of their systems.
                            •     The CIO does not have a process to determine that components have
                                  implemented DHS baseline configurations.

                            See Appendix G for information regarding DHS’ Agencywide Security
                            Configuration Requirements.

                   Incident Detection, Handling, Reporting, and Analysis Procedures

                            DHS has not improved its incident detection, handling, reporting, and
                            analysis procedures during the last year. DHS does not have a
                            departmental vulnerability assessment program to ensure that all systems
                            are tested at least yearly.

                            ISSUES TO BE ADDRESSED

                            •     DHS’ vulnerability assessment program has not been fully established.
                                  Therefore, DHS does not have reliable measures or a baseline to assess
                                  the results of its vulnerability scans or its penetration tests.
                            •     Vulnerability assessments performed at components reviewed during
                                  our network, database, and US-VISIT audits (CBP, CIS, EP&R, TSA,
                                  USCG, USSS, US-VISIT) identified security concerns resulting from
                                  inadequate password controls, patch management, and configuration
                                  management.
                            •     Some components are not reporting incidents to the DHS Computer
                                  Security Incident Response Center (CSIRC), as required. Components
                                  are required to submit weekly incident reports. Four components
                                  (CBP, CIS, EP&R, FLETC) did not submit reports every week during
                                  a ten-week period that we reviewed.
                            •     DHS CSIRC does not follow-up with components that do not submit
                                  weekly incident reports.
                            •     DHS does not have detailed procedures for reporting incidents
                                  externally to law enforcement authorities. We also reported this issue
                                  in our FY 2004 FISMA report. 10


10
     Evaluation of DHS’ Information Security Program for Fiscal Year 2004, dated September 2004 (OIG-04-41).

                                Evaluation of DHS’ Information Security Program for FY 2005

                                                         Page 12
      •     The department has not defined detailed procedures for the DHS
            CSIRC to perform department-wide security incident analysis. We
            reported a similar issue in our FY 2004 FISMA report.

      See Appendix H for information regarding DHS’ Incident Detection and
      Handling Procedures.

Security Training Procedures

      DHS needs to improve its security awareness and security professional
      training programs. The components have not identified all employees and
      contractors with significant security responsibilities or the specific training
      that is needed for these employees.

      PROGRESS

      •     DHS has established an IT Secur ity Training Working group, which
            meets monthly and includes representatives from all components. The
            goal of the group is to improve IT security training efforts throughout
            the department by developing an enterprise solution for security
            awareness and role-based training.
      •     DHS’ Director for Information Security Training, Education, and
            Awareness conducted an assessment of each components’ IT security
            training program in June 2005.
      •     DHS’ Director for Information Security Training, Education, and
            Awareness is requiring each component to develop its security
            awareness, training, and education plan by September 1, 2005.

      ISSUES TO BE ADDRESSED

      •     DHS has not implemented a department-wide web-based IT security
            training program to standardize security awareness training and to
            track the completion of the training. The training program was
            originally planned to be implemented in FY 2004 but is now projected
            to be implemented in FY 2006.
      •     Most of the components’ IT security awareness training do not explain
            DHS’ policy regarding peer-to-peer file sharing.
      •     DHS components have not identified all employees, including
            contractors, with significant IT security responsibilities or been able to
            ensure that employees in those positions have received the necessary
            specialized security training.
      •     The Department’s Information Security Training, Education, and
            Awareness office (Training office) does not verify or validate the

          Evaluation of DHS’ Information Security Program for FY 2005

                                   Page 13
                   training data reported by the components. The Training office relies
                   on the component’s ISSMs to review, summarize, and enter the
                   training data into Trusted Agent FISMA for reporting.
             •     The Training office does not enforce the requirement that all
                   employees and contractors complete refresher security awareness
                   training by May 31st of each year, as stated in the DHS policy.
             •     As of August 2, 2005, none of the components had submitted an IT
                   Security Awareness and IT Professional Training plan for this year. In
                   addition, no training plans were submitted last fiscal year (DHS policy
                   requires plans to be submitted by September 1st of each year).

             See Appendix I for information regarding DHS’ Security Training
             Procedures.


Recommendations
             We recommend that the DHS CIO:
             1. Report the DHS information security program as a significant
                deficiency for FY 2005 in its POA&M.
             2. Ensure that all operational systems are certified and accredited in
                accordance with applicable OMB and NIST guidance.
             3. Establish a process to ensure that all data in Trusted Agent FISMA,
                including POA&Ms, is complete, accurate, and current.
             4. Develop a process to maintain a current department-wide system
                inventory.


Management Comments and OIG Analysis
             DHS agreed with recommendation 1. DHS has developed a detailed
             remediation plan for FY 2006 to improve its security program.

             We agree that the steps that DHS has taken, and plans to take satisfy this
             recommendation.

             DHS agreed with recommendation 2. DHS deployed a C&A tool
             department-wide in April 2005 to be used to accredit all systems.
             Completion of accreditations of all systems is the goal of the DHS
             Information Security Program for FY 2006.



                 Evaluation of DHS’ Information Security Program for FY 2005

                                          Page 14
We agree that the steps DHS has taken, and plans to take satisfy this
recommendation.

DHS agreed with recommendation 3. DHS has made over 100 upgrades
in FY 2005 to Trusted Agent FISMA to improve the accuracy and
completeness of the data. In FY 2006, DHS will identify other ways to
improve the review process and increase accountability at the component
level.

We agree that the steps DHS has taken, and plans to take satisfy this
recommendation.

DHS agreed with recommendation 4. DHS completed a comprehensive
inventory in FY 2005. The department recently implemented an inventory
change control process, and plans on conducting periodic inventory
updates with each component in FY 2006.

We agree that the steps DHS has taken, and plans to take satisfy this
recommendation.




 Evaluation of DHS’ Information Security Program for FY 2005

                          Page 15
              Appendix A
              Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              The objective of this review was to determine whether DHS has developed
              adequate and effective information security policies, procedures, and
              practices, in compliance with FISMA. We evaluated DHS’ progress in
              developing, managing, and implementing its information security
              program, too.

              Our independent evaluation focused on DHS’ information security
              program and practices, based on the requirements outlined in FISMA, and
              utilizing OMB Memorandum M-05-15, FY 2005 Reporting Instructions
              for the Federal Information Security Management Act and Agency Privacy
              Management, issued on June 13, 2005. We conducted our work at the
              program level and at DHS’ major organizational components (CBP, CIS,
              FLETC, ICE, IAIP, Management, OIG, S&T, TSA, USCG, and USSS).

              As part of our evaluation of DHS’ compliance with FISMA, we assessed
              DHS and its components’ compliance with the security requirements
              mandated by FISMA and other federal information systems security
              policies, procedures, standards, and guidelines including NIST SP 800-37,
              and FIPS 199. Specifically, we (1) used last year’s FISMA independent
              evaluation as a baseline for this year’s review and assessed the progress
              that DHS has made in resolving weaknesses previously identified; (2)
              focused on reviewing DHS’ POA&M process to ensure that all security
              weaknesses are identified, tracked, and addressed; (3) reviewed policies,
              procedures, and practices that DHS has at the program level and at the
              organizational component level; (4) evaluated processes (i.e., system
              inventory, C&A, security training, and incident response) DHS has
              implemented as part of its agencywide information security program; and,
              (5) developed our independent evaluation of DHS’ information security
              program.

              OIG audit contractors were responsible for: reviewing the quality of the
              C&A packages for a sample of 16 systems at nine organizational
              components (CBP, CIS, FLETC, IAIP, ICE, Management, OIG, S&T, and
              USCG) to ensure that all of the required documents were completed prior
              to being accredited; and, evaluating DHS’ major organizational
              components progress in developing, aligning, and managing their
              information security program and practices in compliance with DHS’
              agencywide information security program.

              We conducted our review between April and September 2005 under the
              authority of the Inspector General Act of 1978, as amended, and according
              to the Quality Standards for Inspections issued by the President’s Council


               Evaluation of DHS’ Information Security Program for FY 2005

                                        Page 16
Appendix A
Purpose, Scope, and Methodology


on Integrity and Efficiency. Major OIG contributors to the review are
identified in Appendix J.

The principal OIG points of contact for the evaluation are Frank Deffer,
Assistant Inspector General, Office of Information Technology at
(202) 254-4100 and Edward G. Coleman, Director, Information Security
Audits Division at (202) 254-5444.




 Evaluation of DHS’ Information Security Program for FY 2005

                          Page 17
Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2005

                          Page 18
Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2005

                          Page 19
        Appendix C
        Digital Dashboard as of August 26, 2005




                                      Legend
Red – Marginal       Yellow – Basic            Green – Mature           Clear - Undefined



          Evaluation of DHS’ Information Security Program for FY 2005

                                   Page 20
                                  Appendix D
                                  System Inventory and IT Security Performance



                                                                Question 1 and 2 – System Inventory and IT Security Performance
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).

                   To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
                   1) Continue to use NIST Special Publication 800-26, or,
                   2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

              Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self-reporting by contractors does not meet
              the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of
systems, which have completed the following: have a current certification and accreditation, a contingency plan tested within the past year, and security controls tested within the past year.

                                                                     Question 1                                                                                        Question 2
                                         a.                          b.                             c.                               a.                             b.                        c.
                                FY 05 Agency Systems          FY 05 Contractor            FY 05 Total Number of          Number of systems certified Number of systems for which    Number of systems for
                                                                  Systems                        Systems                      and accredited          security controls have been which contingency plans
                                                                                                                                                      tested and evaluated in the    have been tested in
                                                                                                                                                                last year         accordance with policy and
                                                                                                                                                                                          guidance
                                    (a)                        (a)
Bureau       FIPS 199 Risk         Total       Number        Total       Number            (a)           Number                                                 Total
Name         Impact Level         Number       Reviewed     Number       Reviewed     Total Number       Reviewed        Total Number      Percent of Total    Number         Percent of Total    Total Number Percent of Total
CBP         High                                   3                         1                               4                  4               100.0%             3               75.0%                 4             100.0%
            Moderate                               2                         0                               2                  2               100.0%             2               100.0%                2             100.0%
            Sub-total                              5                         1                               6                  6               100.0%             5               83.3%                 6            100.0%
CIS         High                                   0                         2                               2                  2               100.0%             0                0.0%                 0              0.0%
            Moderate                               1                         2                               3                  3               100.0%             0                0.0%                 0              0.0%
            Sub-total                              1                         4                               5                  5               100.0%             0               0.0%                  0              0.0%
EP&R        High                                   9                         1                               10                 3               30.0%              2               20.0%                 0              0.0%
            Moderate                               1                         1                               2                  0                0.0%              0                0.0%                 0              0.0%
            Sub-total                             10                         2                               12                 3               25.0%              2               16.7%                 0              0.0%
FLETC       High                                   2                         0                               2                  2               100.0%             0                0.0%                 0              0.0%
            Sub-total                              2                         0                               2                  2               100.0%             0               0.0%                  0              0.0%
IAIP        High                                   1                         1                               2                  0                0.0%              0                0.0%                 0              0.0%
            Sub-total                              1                         1                               2                  0                0.0%              0               0.0%                  0              0.0%
ICE         High                                   1                         1                               2                  2               100.0%             0                0.0%                 1             50.0%
            Sub-total                              1                         1                               2                  2               100.0%             0               0.0%                  1             50.0%
MGMT        High                                   1                         0                               1                  0                0.0%              0                0.0%                 1              0.0%
            Moderate                               0                         1                               1                  1               100.0%             1               100.0%                1             100.0%


                                                                         Evaluation of DHS’ Information Security Program for FY 2005

                                                                                                          Page 21
                             Appendix D
                             System Inventory and IT Security Performance


                              (a)                  (a)
Bureau     FIPS 199 Risk      Total   Number      Total    Number           (a)      Number                                        Total
Name       Impact Level      Number   Reviewed   Number    Reviewed   Total Number   Reviewed   Total Number   Percent of Total   Number   Percent of Total   Total Number Percent of Total
           Sub-total                      1                   1                         2            1              50.0%           1           50.0%              1            50.0%
OIG        High                           2                   0                         2            2             100.0%           0           0.0%               0             0.0%
           Sub-total                      2                   0                         2            2             100.0%           0           0.0%               0             0.0%
ODP        High                           1                   0                         1            1             100.0%           0           0.0%               0             0.0%
           Sub-total                      1                   0                         1            1             100.0%           0           0.0%               0             0.0%
S&T        High                           0                   1                         1            1             100.0%           0           0.0%               0             0.0%
           Moderate                       1                   0                         1            1             100.0%           0           0.0%               0             0.0%
           Sub-total                      1                   1                         2            2             100.0%           0           0.0%               0             0.0%
TSA        High                           0                   1                         1            0              0.0%            0           0.0%               0             0.0%
           Moderate                       0                   2                         2            0              0.0%            0           0.0%               0             0.0%
           Not Categorized                2                   2                         4            0              0.0%            0           0.0%               0             0.0%
           Sub-total                      2                   5                         7            0              0.0%            0           0.0%               0             0.0%
US-Visit   High                           0                   1                         1            1             100.0%           1          100.0%              0             0.0%
           Moderate                       0                   1                         1            1             100.0%           1          100.0%              0             0.0%
           Sub-total                      0                   2                         2            2             100.0%           2          100.0%              0             0.0%
USCG       High                           2                   1                         3            3             100.0%           1           33.3%              0             0.0%
           Moderate                       5                   2                         7            1              14.3%           3           42.9%              0             0.0%
           Not Categorized                4                   0                         4            2              50.0%           0           0.0%               0             0.0%
           Sub-total                     11                   3                        14            6              42.9%           4           28.6%              0             0.0%
USSS       High                           3                   0                         3            3             100.0%           0           0.0%               0             0.0%
           Moderate                       1                   0                         1            0              0.0%            1          100.0%              0             0.0%
           Sub-total                      4                   0                         4            3              75.0%           1           25.0%              0             0.0%
Agency
Totals     High                          25                   10                       35            24             68.6%           7           20.0%              5             14.3%
           Moderate                      11                   9                        20            9              45.0%           8           40.0%              3             15.0%
           Low                            0                   0                         0            0                              0                              0
           Not Categorized                6                   2                         8            2              25.0%           0           0.0%               0             0.0%
                                                                                                        (b)
           Total                         42                   21                       63          35              55.6%           15          23.8%               8            12.7%

Comments:
(a) Since we are only reporting the number of systems that we reviewed, the total number and number reviewed is the same. See the CIO’s report for the total number of systems
    for each component.
(b) The number of systems with a current C&A is based on an ATO letter, not on the adequacy of the documents required. As noted in Appendix F, 15 of the 16 accreditation
    packages that the OIG reviewed were incomplete.




                                                           Evaluation of DHS’ Information Security Program for FY 2005

                                                                                      Page 22
                                 Appendix D
                                 System Inventory and IT Security Performance


                               Question 3 – System Inventory and IT Security Performance
In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

               The agency performs oversight and evaluation to ensure information
               systems used or operated by a contractor of the agency or other
               organization on behalf of the agency meet the requirements of FISMA,
               OMB policy and NIST guidelines, national security policy, and agency
               policy. Self-reporting of NIST Special Publication 800-26 requirements by
               a contractor or other organization is not sufficient, however, self-reporting
               by another Federal agency may be sufficient.                                                                                             (a)
     3.a.                                                                                      - Rarely, for example, approximately 0-50% of the time
               Response Categories:
                    - Rarely, for example, approximately 0-50% of the time
                    - Sometimes, for example, approximately 51-70% of the time
                    - Frequently, for example, approximately 71-80% of the time
                    - Mostly, for example, approximately 81-95% of the time
                    - Almost Always, for example, approximately 96-100% of the time


               The agency has developed an inventory of major information systems
               (including major national security systems) operated by or under the
               control of such agency, including an identification of the interfaces
               between each such system and all other systems or networks, including
               those not operated by or under the control of the agency.
     3.b.                                                                                           - Approximately 96-100% complete
               Response Categories:
                    - Approximately 0-50% complete
                    - Approximately 51-70% complete
                    - Approximately 71-80% complete
                    - Approximately 81-95% complete
                    - Approximately 96-100% complete


               The OIG generally agrees with the CIO on the number of agency owned
     3.c.                                                                                                                Yes
               systems.

               The OIG generally agrees with the CIO on the number of information
     3.d.      systems used or operated by a contractor of the agency or other                                           Yes
               organization on behalf of the agency.

               The agency inventory is maintained and updated at least annually.                                             (b)
     3.e.                                                                                                               No



     3.f.      The agency has completed system e-authentication risk assessments.                                         No


Comments:
(a) DHS requires contractor systems to be evaluated in the same manner as agency owned systems. However, as of
    August 26, 2005, only 46% of contractor systems have been reviewed this fiscal year.
(b) DHS recently completed its first comprehensive system inventory. DHS has not developed a process that it will
    use to update its system inventory beginning next year.




                                   Evaluation of DHS’ Information Security Program for FY 2005

                                                                    Page 23
                                   Appendix E
                                   OIG Assessment of the POA&M Process




                                     Question 4 – OIG Assessment of the POA&M Process
Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide
plan of action and milestone (POA&M) process. Evaluate the degree to which the following statements reflect the status in your agency by choosing
from the responses provided in the drop do wn menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -    Rarely, for example, approximately 0-50% of the time
      -    Sometimes, for example, approximately 51-70% of the time
      -    Frequently, for example, approximately 71-80% of the time
      -    Mostly, for example, approximately 81-95% of the time
      -    Almost Always, for example, approximately 96-100% of the time


                    The POA&M is an agency wide process, incorporating all
                    known IT security weaknesses associated with information                                                         (a)
       4.a.
                    systems used or operated by the agency or by a contractor - Rarely, for example, approximately 0-50% of the time
                    of the agency or other organization on behalf of the agency.


                    When an IT security weakness is identified, program
                    officials (including CIOs, if they own or operate a system)                                                             (b)
       4.b.                                                                        - Rarely, for example, approximately 0-50% of the time
                    develop, implement, and manage POA&Ms for their
                    system(s).


                    Program officials, including contractors, report to the CIO
                                                                                                                                                  (c)
          4.c.      on a regular basis (at least quarterly) on their remediation   - Frequently, for example, approximately 71-80% of the time
                    progress.


                    CIO centrally tracks, maintains, and reviews POA&M                                                                            (d)
       4.d.                                                                        - Sometimes, for example, approximately 51-70% of the time
                    activities on at least a quarterly basis.


                    OIG findings are incorporated into the POA&M process.                                                                         (e)
          4.e.                                                                     - Sometimes, for example, approximately 51-70% of the time


                    POA&M process prioritizes IT security weaknesses to help
          4.f.      ensure significant IT security weaknesses are addressed in a - Rarely, for example, approximately 0-50% of the time (f)
                    timely manner and receive appropriate resources


Comments:
(a) DHS requires all known IT security weaknesses be included in Trusted Agent FISMA. As of August 22, 2005,
    only 35 percent of the 791 operational applications and general support systems in Trusted Agent FISMA had
    POA&Ms. Since only 32% of the operational systems have a completed C&A (see Appendix C), there should
    be at a minimum, at least one POA&M (lack of completed C&A) for 68% of the systems.
(b) DHS requires components to create POA&Ms for all IT security weaknesses. However, most of the POA&Ms
    do not contain all required information, such as resources required.
(c) The CIO does not ensure that components update the status of their remediation progress. As of
    August 22, 2005, 27% of open POA&Ms had an estimated completion date before July 22, 2005 (which
    includes 2% that had not been updated in over one year).
(d) While the CIO reports to OMB quarterly on the status of its POA&Ms, the CIO does not ensure that the
    information in the POA&M is complete and accurate. The CIO relies on the component ISSMs to review and
    update their POA&Ms on a monthly basis.
(e) While the CIO requires all OIG findings be included in each component’s POA&M, we noted OIG findings at
    six components that were not incorporated into a POA&M.
(f) Most of the components do not have a formal process to prioritize its POA&Ms.



                                      Evaluation of DHS’ Information Security Program for FY 2005

                                                                       Page 24
                          Appendix F
                          OIG Assessment of the C&A Process


                            Question 5 – OIG Assessment of the C&A Process

 OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative
 assessment of the agency’s certification and accreditation process, including adherence to existing policy,
 guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security
 Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation
 work initiated after May 2004. This includes use of the FIPS 199 (February, 2004), “Standards for Security
 Categorization of Federal Information and Information Systems,” to determine an impact level, as well as
 associated NIST documents used as guidance for completing risk assessments and security plans.



              Assess the overall quality of the Department's
              certification and accreditation process.

              Response Categories:
                   - Excellent                                          - Poor (a)
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing


Comments:
(a) Our review of 16 certification and accreditation packages at nine components found 15 instances in which the
    accreditation packages were incomplete. Specifically, systems were accredited, although some key security
    documents were either not prepared, in draft, or did not meet all applicable OMB and NIST guidelines.
    Documents include system security plans, risk assessments, FIPS 199 security categorizations, privacy impact
    assessments, e-authentication assessments, memorandum of understandings, contingency plans, and
    contingency plan testing.
    Note: The implementation of the department-wide C&A tool (required use as of April 2005) may improve the
    quality of the C&A packages in the future.




                            Evaluation of DHS’ Information Security Program for FY 2005

                                                      Page 25
                          Appendix G
                          Agencywide Security Configuration Requirements


                    Question 6 – Agencywide Security Configuration Requirements

                            Is there an agency wide security configuration
            6.a.            policy?                                                             Yes
                            Yes or No.
    Comments: DHS has included in its agency-wide policy the requirement that all components ensure that the
    installation of hardware and software products meet the requirements specified in applicable DHS baseline
    configuration guides. However, DHS has not developed configuration guides for all hardware and software
    systems being used by its components.
                              Configuration guides are available for the products listed below. Identify which
                              software is addressed in the agency wide security configuration policy. Indicate
             6.b.             whether or not any agency systems run the software. In addition, approximate the
                              extent of implementation of the security configuration policy on the systems running
                              the software.

                                                                              Approximate the extent of
                                                                              implementation of the security
                                                                              configuration policy on the systems
                                                                              running the software.

                                                                             Response choices include:
                                                                             - Rarely, or, on approximately 0-50% of
                                                                             the systems running this software
                                                                             - Sometimes, or on approximately
                                                                             51-70% of the systems running this
                                                                             software
                                                                             - Frequently, or on approximately
          Product                                                            71-80% of the systems running this
                                                                             software
                                 Addressed in      Do any agency systems run - Mostly, or on approximately 81-95%
                              agencywide policy?         this software?      of the systems running this software
                                                                             - Almost Always, or on approximately
                                                                             96-100% of the systems running this
                                    Yes, No,                                 software
                                    or N/A.                Yes or No.
Windows XP Professional               Yes                       Yes
Windows NT                            No                        Yes
Windows 2000 Professional             Yes                       Yes
Windows 2000 Server                   Yes                       Yes
Windows 2003 Server                   Yes                       Yes
                                                                                                (a)
Solaris                               Yes                       Yes
HP-UX                                 Yes                       Yes
Linux                                 Yes                       Yes
Cisco Router IOS                      Yes                       Yes
Oracle                                Yes                       Yes
Other. Specify:                       N/A
Comments:
(a) While many of the components use standard configurations for some of their systems, most have not
    implemented DHS' configuration guides that were issued in November 2004. In addition, the CIO has not
    verified or determined whether components are using DHS standard configurations (or any other standard
    configurations).



                            Evaluation of DHS’ Information Security Program for FY 2005

                                                      Page 26
                           Appendix H
                           Incident Detection and Handling Procedures



                     Question 7 – Incident Detection and Handling Procedures

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or
necessary, include comments in the area provided below.


          The agency follows documented policies and procedures for
                                                                                                      (a)
   7.a.   identifying and reporting incidents internally.                                       Yes
          Yes or No.


          The agency follows documented policies and procedures for external
                                                                                                      (b)
   7.b.   reporting to law enforcement authorities.                                             No
          Yes or No.


          The agency follows defined procedures for reporting to the United
   7.c.   States Computer Emergency Readiness Team (US-CERT).                                    Yes
          Yes or No.

Comments:
(a) While DHS requires components to submit weekly incident reports, we determined that during a ten-week
    period in 2005, four major components (CBP, CIS, EP&R, FLETC) did not submit reports every week.
(b) We again determined that DHS has not documented detailed procedures for reporting incidents to law
    enforcement authorities.




                            Evaluation of DHS’ Information Security Program for FY 2005

                                                       Page 27
                           Appendix I
                           Security Training Procedures




                              Question 8 – Security Training Procedures
           Has the agency ensured security training and awareness of all
           employees, including contractors and those employees with
           significant IT security responsibilities?

           Response Choices include:
           - Rarely, or, approximately 0-50% of employees have sufficient
           training
            - Sometimes, or approximately 51-70% of employees have        - Mostly, or, approximately 81-95%
           sufficient training                                            of employees have sufficient training
            - Frequently, or approximately 71-80% of employees have
           sufficient training
            - Mostly, or approximately 81-95% of employees have
           sufficient training
            - Almost Always, or approximately 96-100% of employees have
           sufficient training


Comments: Eight of the components reviewed have established a process to determine that all employees, including
contractors, receive IT security awareness training. Components have not identified all of the employees with
significant IT responsibility, or have established the type of specialized training to be provided to such employees.
The CIO does not perform any verification of the number of employees that the components report as being trained.



                              Question 9 – Security Training Procedures

           Does the agency explain policies regarding peer-to-peer file
           sharing in IT security awareness training, ethics training, or any
                                                                                                No
           other agency wide training?
           Yes or No.


Comments: Most of the component’s IT security awareness training materials do not explain DHS’ policy regarding
Peer-to-Peer file sharing risks.




                            Evaluation of DHS’ Information Security Program for FY 2005

                                                       Page 28
Appendix J
Major Contributors to this Report




Information Security Audit Division

Edward G. Coleman, Director
Jeff Arman, Audit Manager
Patrick Nadon, Audit Manager
Chiu-Tong Tsang, Senior IT Auditor
Jason Bakelar, Senior IT Auditor
Pedro Calderon, IT Auditor
Chris Udoji, IT Auditor
Swati Mahajan, IT Auditor
Scott Binder, IT Auditor
Kelby Funn, IT Auditor
Charles Twitty, Referencer

Advanced Technology Division

Jim Lantzy, Director
Michael Goodman, Security Engineer




 Evaluation of DHS’ Information Security Program for FY 2005

                           Page 29
Appendix K
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Chief Information Officer
Chief Financial Officer
Chief Information Security Officer
Public Affairs
Legislative Affairs
Office of Security
Director, Departmental GAO/OIG Liaison Office
Director, Compliance and Oversight Program
Chief Information Officer Audit Liaison
Component ISSMs
Component CIOs


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




 Evaluation of DHS’ Information Security Program for FY 2005

                            Page 30
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
